U.S. DEPARTMENT OF COMMERCE
          Office of Inspector General




           United States Patent
          and Trademark Office


   FY 2009 FISMA Assessment of 

              Enterprise UNIX 

         Services System (EUS) 

                 (PTOI-010-00) 

         Final Inspection Report No. OAE-19729
                                 November 2009




                     Office of Audit and Evaluation
                                                  UNITED STATES DEPARTMENT OF COMMERCE
                                                  Office of Inspector General
                                                  Washington. D.C. 20230




November 20, 2009

MEMORANDUM FOR:	 David Kappos
                 Under Secretary of Commerce for Intellectual Property
                 and Director of the United States Patent and Trademark
                 Office



FROM:	                    Allen Crawley
                          Assistant Inspector General
                          for Systems Acquisition and IT Security

SUBJECT:	                  United States Patent and Trademark Office
                           FY 2009 FISi\l[A Assessment of Enterprise UNIX Services
                           System (EUS) (PTOI-OIO-OO)
                           Final Inspection Report No. OAE-19729


This report presents the results of our Federal Information Security Management
Act (FISMA) review of USPTO's certification and accreditation of the Enterprise
UNIX Services system.

We found that the authorizing official received sufficient information to make a
credible, risk-based decision to approve system operation. However, we also
identified several security plan inaccuracies and control assessment deficiencies,
and OIG's own assessment of selected security controls found vulnerabilities that
require remediation.

In its response to our draft report, USPTO concurred with all our findings and
recommendations. USPTO's response is summarized in the appropriate sections of
the report. USPTO's response is included in its entirety as appendix A.

We request that you provide us with an action plan describing the actions you have
taken or plan to take in response to our recommendations within 60 calendar days
of the date of this report. A plan of action and milestones should be used to
communicate the plan as required by FISMA.

We appreciate the cooperation and courtesies extended to us by your staff during
our evaluation. If you would like to discuss any of the issues raised in this report,
please call me at (202) 482-1855.
Attachment

cc: 	 Suzanne Hilding, Chief Information Officer, U.S. Department of Commerce
      John B. Owens II, chief information officer, USPTO
      Rod Turk, director, office of policy and governance, USPTO
      Welton Lloyd, USPTO audit liaison
                                Report In Brief
                                       U.S. Department of Commerce, Ofﬁce of Inspector General
                                                           November 2009

Why We Did This Review United States Patent and Trademark Ofﬁce (USPTO)
The Federal Information
Security Management Act of          FY 2009 FISMA Assessment of the Enterprise UNIX Ser-
2002 (FISMA) requires federal
agencies to identify and provide
                                   vices System (OAE-19729)
security protection of informa-
tion collected or maintained by What We Found
it or on its behalf. Inspectors
general are required to annually
                                   We evaluated certiﬁcation and accreditation activities for the Enterprise UNIX
evaluate agencies’ information
                                   Services (EUS) system as part of our FY 2009 reporting responsibilities under
security programs and practices.
                                   the Federal Information Security Management Act (FISMA).
Such evaluations must include
testing of a representative subset
                                   We found that while the security plan was generally adequate, some inaccuracies
of systems and an assessment,
                                   need to be addressed. Security control assessments were generally adequate but
based on that testing, of the
                                   improvements are needed, and our control assessment found some vulnerabilities
entity’s compliance with FISMA
                                   that require remediation. Despite these deﬁciencies, the authorizing ofﬁcial re-
and applicable requirements.
                                     ceived sufﬁcient information to make a credible, risk-based decision to approve
                                     system operation.
This review covers our evalua-
tion of USPTO’s EUS system,
which is one of a sample of sys-
tems we assessed in FY 2009.



Background

EUS is a general support system
that comprises various operating
systems and databases. The pur-
pose of this system is to provide What We Recommend
a hosting platform and databases
that support major USPTO ap- In order to ensure the EUS system complies with FISMA requirements, USPTO
plications.                       should resolve the deﬁciencies we reported. USPTO agrees with our ﬁndings,
                                     and has identiﬁed the corrective actions it needs to take to address our recom-
C&A is a process by which            mendations.
security controls for IT sys-
tems are assessed to determine
their overall effectiveness.
Understanding the remaining
vulnerabilities identiﬁed during
the assessment is essential in
determining the risk to the orga-
nization’s operations and assets,
to individuals, to other organiza-
tions, and to the nation resulting
from the use of the system.
                       OIG FY 2009 FISMA Assessment


Listing of Abbreviated Terms and Acronyms



AIS          automated information system
C&A          certification and accreditation
CALS         Centralized Audit Log System
ERA          Enterprise Remote Access
EUS          Enterprise UNIX Services
FISMA        Federal Information Security Management Act of 2002
IT           information technology


NIST         National Institute of Standards and Technology
NIST SP      National Institute of Standards and Technology Special Publication
NSI          Network and Security Infrastructure


SSP          system security plan
USPTO        United States Patent and Trademark Office
USSS         UNIX Systems Services Section




                                    Page 1
                                 OIG FY 2009 FISMA Assessment


 Synopsis of Findings

      •   Security plan was generally adequate but inaccuracies need to be addressed.

      •   Security control assessments were generally adequate but improvements are
          needed.

      •   OIG control assessment found vulnerabilities requiring remediation.


 Conclusion

 Despite security plan inaccuracies and control assessment deficiencies, the authorizing
 official received sufficient information to make a credible, risk-based decision to approve
 system operation.




Summary of USPTO Response

In its response to our draft report, the United States Patent and Trademark Office (USPTO)
concurred with all of our findings and recommendations (see appendix A). USPTO requested
additional information related to one of our findings.

In addition, USPTO identified actions it will take to address our findings and recommendations.

OIG Comments

USPTO concurred with our findings and recommendations and provided corrective actions to
address them.

We also provided the requested information to USPTO. We address specific elements of
USPTO’s response in the applicable sections of the report.




                                              Page 2
                              OIG FY 2009 FISMA Assessment



Introduction
 We evaluated the certification and accreditation for the Enterprise UNIX Services (EUS)
 system. For our complete objectives, scope, and methodology, see appendix B.

 The EUS system is a general support system that comprises UNIX-based operating
 systems and         databases. The purpose of this system is to provide a hosting platform
 and databases that support major USPTO applications. The system was authorized to
 operate on May 5, 2009. At that time, there were


                                                   .

 USPTO has characterized EUS as a
                                      effect on organizational operations, organizational
 assets, or individuals.




                                          Page 3
                                    OIG FY 2009 FISMA Assessment

Findings and Recommendations

    1. Security Plan was Generally Adequate but Inaccuracies Need to be
       Addressed
    •   The initiation-phase security plan generally provided adequate implementation
        descriptions for applicable security controls and identified controls as system-specific,
        common,1 or hybrid.2
        o The security plan referenced system boundary documents that adequately described
           the accreditation boundary.

    •   The security plan was updated to reflect the results of security certification; however,
        some improvements are needed.
        o The initiation phase security plan identified 54 controls with system-specific
           implementations. However, during the certification phase, 11 additional system-
           specific controls were identified.
        o The security plan states that the control Session Authenticity (SC-23) is not
           applicable to the system.

                                                        Thus, the control is applicable to EUS and
            should be described in the security plan.
        o   The security plan states that the control Time Stamps (AU-8) is a common control.
            However, information technology (IT) products in the system must be configured to
            use the appropriate time server. This configuration setting is the responsibility of
            EUS, so AU-8 should be identified as a hybrid control.
        o   The following security control implementation descriptions need improvement.
            • Access Enforcement (AC-3).


               Response to Audit Processing Failures (AU-5). The control description only
                addresses file system capacity and does not address other failures such as
                failure in the                .
               User Identification and Authentication (IA-2). The control description does not
                reference appropriate policies that identify USPTO requirements for password
                complexity. As a result, these requirements were not assessed (see finding 3).
               Configuration Settings (CM-6).




1
  Common control: a security control that applies to one or more agency systems. A common
control is developed, implemented, and assessed by a responsible official other than the
information system owner.
2
  Hybrid control: a designation given to a security control in situations in which one part of the
control is deemed to be common, while another part of the control is deemed to be system-
specific.
3




                                                 Page 4
                                OIG FY 2009 FISMA Assessment


 Recommendation

 1.1 USPTO should ensure that the security plan is updated to correct the inaccuracies noted.




USPTO Response

USPTO concurred with this finding and our recommendation.




                                            Page 5
                                 OIG FY 2009 FISMA Assessment


2. Security Control Assessments Were Generally Adequate but
   Improvements Are Needed
 •   System-specific control assessments were generally adequate.
     o Assessments were performed on an adequate set of system components.
     o Results, in general, were sufficiently supported by evidence.
     o Procedures were adequate to assess security control requirements.

 •   Controls implemented on                  servers were not adequately assessed.
     o The servers were scanned for vulnerabilities.
     o Certification test results indicate that two controls were assessed. However, issues
        identified during the assessment were not reported to the authorizing official,
        recorded in the security assessment report, or included in the plan of action and
        milestones.
        



         


     o   Eighteen additional controls implemented on these servers were not assessed (for
         example, controls from the
                                          families).

 •   Assessments of the following controls on the UNIX-based servers were inadequate.
     o Control assessments for Access Enforcement (AC-3)

     o   Control assessments for User Identification and Authentication (IA-2)

     o   Compliance scans to assess Authenticator Management (IA-5)


 •   Assessment results were not included for the following security controls that are
     provided by other systems.
     o                                                     The security plan states that the
         system relies on the CALS, which is part of the Network and Security Infrastructure
         system.
     o                                            The security plan states that this control is
         provided by another system but does not identify the system.
     o                                     The security plan states that this control is provided
         by the Enterprise Remote Access (ERA) system.
     o                                                                              The security
         plan states that this is provided by CALS.
     o                                                                     The security plan
         states that this control is provided by ERA.

 •   Assessment procedures for the following common security controls called for an
     examination or test of actual system components, but only document reviews or
     interviews were conducted.
     o




                                             Page 6
                                 OIG FY 2009 FISMA Assessment



      o

      o

      o

      o


 Recommendations

 USPTO should ensure that

 2.1 controls implemented on the 	                are assessed and any deficiencies are briefed
     to the authorizing official and appropriate plan of action and milestones items are created;
 2.2 inadequacies identified for security controls AC-3, IA-2, and IA-5 are corrected prior to
     conducting future control assessments;
 2.3 assessment results for controls provided by other systems are presented to the
     authorizing official; and
 2.4 common control assessment procedures requiring an examination or test of system
     components are performed.



USPTO Response

USPTO concurred with this finding and our recommendations. USPTO requested that we identify
the 18 additional controls that were not assessed on            so it could plan appropriate
corrective actions.

OIG Comments

We provided USPTO the requested information via e-mail.




                                             Page 7
                                    OIG FY 2009 FISMA Assessment



3. OIG Control Assessment Found Vulnerabilities Requiring
   Remediation

    As part of OIG’s FY 2009 Federal Information Security Management Act of 2002 (FISMA)
    evaluation of EUS, we assessed a targeted set of system components to determine if
    selected security controls are properly assessed and implemented on applicable IT
    products. We tailored our procedures to the system’s specific control implementations.

    •    OIG assessments identified the following weaknesses in National Institute of
         Standards and Technology Special Publication (NIST SP) 800-53 controls that were
         not identified by the certification team and need to be addressed.
         o
              •
              •
              •
              •
              •
              •
         o
              •
              •

    •   Details of NIST SP 800-53 controls that we assessed are listed in table 1.

    •   Components selected for OIG control assessment are listed in appendix C.

    Recommendation

    3.1 USPTO should add the vulnerabilities identified in table 1 to the system’s plan of action
        and milestones and remediate them accordingly.



USPTO Response

USPTO concurred with this finding and our recommendation.




5




                                                Page 8
                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                     Page 9
                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                    Page 10

                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                    Page 11

                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                    Page 12

                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                    Page 13
                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                    Page 14

                                          OIG FY 2009 FISMA Assessment




Table 1. OIG Control Assessment Results
Security        NIST SP 800-53                 EUS Assessment Results (Excerpts)   OIG Assessment
Control         Requirement                                                            Results




                                                    Page 15

                       OIG FY 2009 FISMA Assessment

Appendix A: USPTO’s Response to Findings




                                 Page 16

OIG FY 2009 FISMA Assessment




          Page 17

OIG FY 2009 FISMA Assessment




          Page 18

OIG FY 2009 FISMA Assessment




          Page 19

OIG FY 2009 FISMA Assessment




          Page 20

OIG FY 2009 FISMA Assessment




          Page 21

                               OIG FY 2009 FISMA Assessment


Appendix B: Objectives, Scope, and Methodology

    To meet FY 2009 FISMA reporting requirements, we evaluated the certification and
    accreditation for the United States Patent and Trademark Office (USPTO) Enterprise
    UNIX Services (EUS) system.
    Security certification and accreditation packages contain three elements, which form the
    basis of an authorizing official’s decision to accredit a system:

    •   The system security plan describes the system, the requirements for security
        controls, and the details of how the requirements are being met. The security plan
        provides a basis for assessing security controls and also includes other documents
        such as the system risk assessment and contingency plan, per Department policy.
    •   The security assessment report presents the results of the security assessment
        and recommendations for correcting control deficiencies or mitigating identified
        vulnerabilities. This report is prepared by the certification agent.
    •   The plan of action and milestones is based on the results of the security
        assessment. It documents actions taken or planned to address remaining
        vulnerabilities in the system.

The Department’s IT Security Program Policy and Minimum Implementation Standards
requires that certification and accreditation (C&A) packages contain a certification
documentation package of supporting evidence of the adequacy of the security assessment.
Two important components of this documentation are

    •   the certification test plan, which documents the scope and procedures for testing
        (assessing) the system’s ability to meet control requirements; and
    •   the certification test results, which is the raw data collected during the assessment.

To evaluate the certification and accreditation, we reviewed all components of the C&A
package and interviewed USPTO staff to clarify any apparent omissions or discrepancies in
the documentation and gain further insight on the extent of the security assessment. We
evaluated the security plan and assessment results for applicable security controls and will
give substantial weight to the evidence that supports the rigor of the security assessment
when reporting our findings to the Office of Management and Budget.

In addition, we performed our own assessment of a targeted selection of controls (see
appendix B-1). We conducted our assessment using a subset of procedures from NIST SP
800-53A, which we tailored to EUS’ specific control implementations. We did not attempt to
perform a complete assessment of each control; instead we chose to focus on specific
technical and operational elements.

We assessed controls on key classes of IT components, choosing a targeted set of
components from each class that would allow for direct comparison with USPTO’s
certification test results. We assessed controls on
and                      . We also performed compliance scanning using Nessus.

Our assessment included the following activities:

    •   extraction, examination, and verification of system configurations
    •   execution of scripts and manual checklists
    •   examination of system logs
    •   review of account management procedures
    •   vulnerability scanning of network-addressable components




                                           Page 22
                                 OIG FY 2009 FISMA Assessment


    •	   examination/analysis of security plan descriptions, including related policy and
         procedure documents
    •	   interviews with appropriate USPTO personnel

Our assessment was limited in scope and should not be interpreted as the comprehensive
review that a security certification for a                system would require. It gave us
direct assurance of the status of select aspects of important system controls and provided
meaningful comparison with USPTO’s security certification.

We used the following review criteria:

    •	   FISMA
    •	   U.S. Department of Commerce IT Security Program Policy and Minimum 

         Implementation Standards, June 30, 2005 

    •	   National Institute of Standards and Technology (NIST) Federal Information 

         Processing Standards 

             o	 Publication 199, Standards for Security Categorization of Federal Information
                 and Information Systems
             o	 Publication 200, Minimum Security Requirements for Federal Information and
                 Information Systems
    •	   NIST Special Publications:
             o	 800-18, Guide for Developing Security Plans for Information Technology
                 Systems
             o	 800-37, Guide for the Security Certification and Accreditation of Federal
                 Information Systems
             o	 800-53, Recommended Security Controls for Federal Information Systems
             o	 800-53A, Guide for Assessing the Security Controls in Federal Information
                 Systems
             o	 800-70, Security Configuration Checklists Program for IT Products
             o	 800-115, Technical Guide to Information Security Testing and Assessment

We conducted our evaluation in accordance with the Inspector General Act of 1978, as
amended, and the Quality Standards for Inspections (revised January 2005), issued by the
President’s Council on Integrity and Efficiency.




                                            Page 23
                            OIG FY 2009 FISMA Assessment




Appendix B-1: NIST SP 800-53 Security Controls Assessed by OIG

  •   AC-2   Account Management, Enhancements 1 to 4
  •   AC-3   Access Enforcement
  •   AC-6   Least Privilege
  •   AC-7   Unsuccessful Login Attempts
  •   AC-8   System Use Notification
  •   AU-6   Audit Monitoring, Analysis, and Reporting
  •   AU-8   Time Stamps
  •   IA-2   User Identification and Authentication
  •   IA-5   Authenticator Management




                                      Page 24
                      OIG FY 2009 FISMA Assessment




Appendix C: Components Assessed by OIG
Name          IP Address    Zone                     Operating System




                                Page 25

